   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




October 19, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:       Recipient Capability Audit of Child Care Association
               of Brevard County, Inc. (A-04-09-03529)


The attached final report provides the results of our limited scope review of Child Care
Association of Brevard County’s (CCA) capacity to manage and account for Federal funds and
to operate its Head Start program in accordance with Federal regulations. This review was
requested by the Administration for Children and Families, Office of Head Start, as part of its
overall assessment of Head Start grantees that have applied for additional funding under the
Recovery Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objective of our limited scope review was to assess CCA’s capacity to manage and account
for Federal funds and to operate its Head Start program in accordance with Federal regulations.

CCA cannot effectively manage and account for Federal funds or operate its Head Start program
in accordance with Federal regulations. Specifically, CCA:

      lacked sufficient cash to meet its operating expenses and debt obligations,
Page 2 – Yvette Sanchez Fuentes


      lacked an effective financial management system to adequately manage and account for
       Federal funds,

      did not always value or account for the non-Federal matching portion of its budget in
       accordance with Federal regulations, and

      did not obtain HHS approval before securing a bank loan with property in which the
       Federal Government has an interest.

Also, other State and non-Federal agencies cited multiple issues concerning CCA’s financial
management and viability. Based on its current financial position and future debt obligations,
CCA may not be able to continue functioning as a “going concern” unless it receives additional
funding.

In determining whether CCA should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
CCA’s capacity to manage and account for Federal funds.

CCA’s written comments on our draft report included corrective actions it had taken or planned
to take regarding our findings. However, CCA’s comments did not cause us to change our
findings. Accordingly, we continue to recommend that ACF consider the information presented
in this report to determine CCA’s capacity to manage and account for Federal funds.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-09-03529 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RECIPIENT CAPABILITY AUDIT
OF CHILD CARE ASSOCIATION OF
    BREVARD COUNTY, INC.




                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-04-09-03529
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services (HHS), the Administration for Children and Families (ACF) administers the
Head Start program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

The Child Care Association of Brevard County, Inc. (CCA), a private, non-profit agency,
coordinates child care, early childhood education and, early intervention programs and services
for families. Specifically, CCA operates a Head Start program, which along with a childcare
food program provides education, nutrition, health, mental health, dental, and social services to
low-income preschool children and their families throughout Brevard County, Florida.

CCA is funded primarily through Federal Government grants. During the period July 1, 2005,
through June 30, 2008, ACF directly provided Head Start grant funds to CCA totaling $17.7
million ($6.3 million for the fiscal year (FY) ended June 30, 2006; $6.0 million for FY 2007; and
$5.4 million for FY 2008). Also, for the 10 months ended April 30, 2009, ACF provided CCA
$4.8 million in Head Start grant funds.

CCA received Recovery Act grant funding for FY 2009, totaling $498,015 for Head Start, Early
Head Start, and cost-of-living increases.

OBJECTIVE

The objective of our limited scope review was to assess CCA’s capacity to manage and account
for Federal funds and to operate its Head Start program in accordance with Federal regulations.

SUMMARY OF FINDINGS

CCA cannot effectively manage and account for Federal funds or operate its Head Start program
in accordance with Federal regulations. Specifically, CCA (1) lacked sufficient cash to meet its
operating expenses and debt obligations, (2) lacked an effective financial management system to
adequately manage and account for Federal funds, (3) did not always value or account for the
non-Federal matching portion of its budget in accordance with Federal regulations, and (4) did
not obtain HHS approval before securing a bank loan with property in which the Federal



                                                 i
Government has an interest. Also, other State and non-Federal agencies cited multiple issues
concerning CCA’s financial management and viability. Based on its current financial position
and future debt obligations, CCA may not be able to continue functioning as a “going concern”
unless it receives additional funding.

RECOMMENDATION

In determining whether CCA should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
CCA’s financial condition.

CHILD CARE ASSOCIATION OF BREVARD COUNTY, INC. COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

CCA’s written comments on our draft report included corrective actions it had taken or planned
to take regarding our findings. CCA also included documents that it believed would provide
additional information relative to the report’s findings. However, CCA’s comments did not
cause us to change our findings. Accordingly, we continue to recommend that ACF consider the
information presented in this report in assessing CCA’s financial condition.

The complete text of CCA’s comments is included as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program............................................................................................1
              Child Care Association of Brevard County, Inc. ...............................................1
              Federal Requirements ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATION.............................................................................3

          FINANCIAL POSITION NOT SUFFICIENT TO MEET
             OPERATING OBLIGATIONS ................................................................................4
                Other Issues Potentially Affecting Financial Position .......................................5

          LACK OF EFFECTIVE FINANCIAL MANAGEMENT SYSTEM ...........................6

          IN-KIND VALUATION AND REPORTING ..............................................................8

          COLLATERALIZED PROPERTY...............................................................................9

          FINDINGS BY OTHERS..............................................................................................9
               Early Learning Coalition of Brevard County.....................................................9
               Florida Agency for Workforce Innovation ......................................................10
               Florida Department of Health ..........................................................................10

RECOMMENDATION.........................................................................................................11

          CHILD CARE ASSOCIATION OF BREVARD COUNTY, INC.
            COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE............11
               Financial Position Not Sufficient To Meet Operating Obligations ................ 11
               Lack of Effective Financial Management System .......................................... 12
               In-Kind Valuation and Reporting ................................................................... 13
               Collateralized Property ................................................................................... 13
               Findings by Others.......................................................................................... 14

APPENDIX

    CHILD CARE ASSOCIATION OF BREVARD COUNTY, INC. COMMENTS



                                                                    iii
                                                INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services (HHS), the Administration for Children and Families (ACF) administers the
Head Start program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

Child Care Association of Brevard County, Inc.

The Child Care Association of Brevard County, Inc. (CCA), a private, non-profit agency,
coordinates child care, early childhood education, and early intervention programs and services
for families. Specifically, CCA operates a Head Start program, which along with a childcare
food program provides education, nutrition, health, mental health, dental, and social services to
low-income preschool children and their families throughout Brevard County, Florida.

CCA is funded primarily through Federal Government grants. During the period July 1, 2005,
through June 30, 2008, ACF directly provided Head Start grant funds to CCA totaling $17.7
million ($6.3 million for fiscal year 1 (FY) 2006, $6.0 million for FY 2007, and $5.4 million for
FY 2008). Additionally, for the 10 months ended April 30, 2009, ACF provided to CCA $4.8
million in Head Start grant funds.

CCA received Recovery Act grant funding for FY 2009, totaling $498,015 for Head Start, Early
Head Start, and cost-of-living increases.



1
    CCA’s fiscal year covered the period July 1 through June 30.


                                                           1
Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that: provide accurate, current, and complete disclosure of the financial results of each HHS-
sponsored project and contain written procedures for determining the reasonableness,
allocability, and allowability of costs. Grantees must maintain accounting records that are
supported by source documentation. Grantees are also required to compare outlays with budget
amounts for each award and maintain effective control over all funds, property, and other assets.

Section 642 of the Head Start Act, states that a Head Start agency must document strong fiscal
controls, including the employment of well-qualified fiscal staff with a history of successful
management. Furthermore, 45 CFR § 1304.51(h) requires a grantee to establish and maintain an
efficient and effective reporting system to generate periodic reports of financial operations and
official reports for Federal authorities.

Regulations (45 CFR § 74.23) provide criteria for grantees to use in valuing and accounting for
cost sharing or matching contributions, including cash and third party in-kind contributions.

Also, 45 CFR § 1304.40(b)(1)(i) states that donated clothing is not allowable as it is beyond the
scope of the purposes of the Head Start program.

Pursuant to 45 CFR § 1309.21(b), facilities that are acquired with grant funds may not be
mortgaged, used as collateral, sold, or otherwise transferred to another party without the written
permission of the responsible HHS official.

OMB Circular A-133 allows submission of program-specific audits within the earlier of 30 days
after receipt of the audit report or nine months after the end of the audit period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess CCA’s capacity to manage and account
for Federal funds and to operate its Head Start program in accordance with Federal regulations.

Scope

We performed this review based on a June 15, 2009, limited scope request from ACF.
Therefore, we did not perform an overall assessment of CCA’s internal control structure.
Instead, we reviewed only the internal controls that pertained directly to our objectives. Our
review period covered FYs 2006, 2007, and 2008 and the 10 months ended April 30, 2009.

We performed our fieldwork at CCA’s administrative office in Brevard County, Florida, during
June and July 2009.




                                                 2
Methodology

To accomplish our objective, we:

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed CCA’s fiscal procedures related to accounting documentation and preparation
        of financial reports;

       obtained Federal and local government grant award documentation to determine CCA’s
        Federal funding;

       interviewed CCA personnel to gain an understanding of CCA’s operations;

       reviewed CCA’s financial statements for FYs 2006 through 2009; 2

       reviewed CCA’s expense accounts, monthly financial statements, and SF-269s (Financial
        Status Report) submitted to ACF;

       performed liquidity and stability analyses of CCA’s finances;

       reviewed reports of and held discussions with State agencies and non-Federal entities that
        provided CCA funding;

       obtained and reviewed CCA’s loan agreements and property appraisal records; and

       provided a summary of our findings to CCA for comment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATION

CCA cannot effectively manage and account for Federal funds or operate its Head Start program
in accordance with Federal regulations. Specifically, CCA (1) lacked sufficient cash to meet its
operating expenses and debt obligations, (2) lacked an effective financial management system to
adequately manage and account for Federal funds, (3) did not always value or account for the
non-Federal matching portion of its budget in accordance with Federal regulations, and (4) did
not obtain HHS approval before securing a bank loan with property in which the Federal

2
 We reviewed CCA’s audited financial statements for FYs 2006, 2007, and 2008, as well as the financial statements
for the ten months ended April 30, 2009, which CCA created during our fieldwork. The financial statements for the
ten months ended April 30, 2009, have not been audited.


                                                        3
Government has an interest. Also, State agencies and non-Federal entities cited multiple issues
concerning CCA’s financial management and viability. Based on its current financial position
and future debt obligations, CCA may not be able to continue functioning as a “going concern”
unless it receives additional funding.

FINANCIAL POSITION NOT SUFFICIENT TO MEET OPERATING OBLIGATIONS

We performed a liquidity analysis–the relationship of current assets to current liabilities–to
determine CCA’s ability to pay its current obligations. Generally, for an organization to be
considered fiscally sound, its current assets should be valued more than its current liabilities.

We also performed a debt ratio analysis which is used to determine the overall financial risk of
the organization. The debt ratio is an organization’s total debt divided by total assets. This will
tell you how much the company relies on debt to finance assets. When calculating this ratio,
both current and non-current debt and assets are considered. In general, the lower the
organization's reliance on debt for asset formation, the less risky the organization is since
excessive debt can lead to a very heavy interest and principal repayment burden.

During FYs 2006, 2007, and 2008 and the 10 months ended April 30, 2009, CCA’s cash position
was not sufficient to meet its operating expenses and debt obligations as shown in the chart
below.
                                       CCA’s Cash Position

            FY                             2006           2007           2008           2009 3
Current Assets                          $5,168,367    $3,353,805      $580,974        $819,428
Current Liabilities                      5,807,938      4,315,215     1,261,160       1,370,322
                                          (639,571)    (961,410)      (680,186)       (550,894)
Current Ratio                              0.89           0.78           0.46            0.60

Total support and revenues              $35,616,838   $35,755,801    $17,688,176     $11,811,460
Total expenses                           36,841,128    36,190,992     18,406,438      11,662,331
   Change in net assets                 (1,224,290)    (435,191)      (718,262)        149,129

Cash and cash equivalents                $107,272         $39,112      $41,042         $160,518
Daily Cash Use                            100,935          99,153       50,429           38,363
Days of coverage                           1.06            0.39         0.81             4.18

Net assets, end of the year              $(98,316)        $360,770   $(208,492)        $(59,363)

Specifically, CCA’s:

          current liabilities exceeded current assets by a significant amount during each of the FYs
           2006, 2007, and 2008 and during the 10 months of FY 2009, which led to a current ratio
           of less than one for each year;
3
    This column reflects only 10 months in 2009.


                                                      4
      expenses exceeded revenues in the three full years;

      net assets at the end of two of the three full years and for the 10 months ended April 30,
       2009, were negative; and

      cash balance, based on daily cash use, covered operating expenses for periods ranging
       from less than 1 day for each of the 3 FYs to 4 days for the 10 months ended April 30,
       2009.

In FY 2008, a local bank committed to providing CCA with sufficient working capital to cover
operations through July 1, 2009, to mitigate CCA’s independent auditors’ doubts about its ability
to continue as a going concern through June 30, 2009. Because of the bank’s commitment, the
independent auditors did not raise a “going concern” issue in the audit report for FY 2008.
CCA’s unaudited financial statements for the 10-month period ended April 30, 2009, show that
CCA has improved its cash position slightly. However, the Income Statement supporting the
Federal form SF-269 filed with ACF for the 12 months ended April 30, 2009, indicated that
CCA’s expenses exceeded revenues by approximately $500,000. CCA’s current cash position is
not sufficient to meet its future operating expenses and debt obligations.

Additionally, CCA does not have sufficient non-Federal funding to pay its long-term debt.
During its 2006-2007 budget year, CCA opened a $1 million line of credit, which it subsequently
paid in full from a cash donation of over $900,000 from the Marjorie G. Olsen Foundation. That
same year, CCA was extended another $1 million line of credit. On September 29, 2008, CCA
converted this line of credit to a 20-year mortgage loan worth $937,583. Again, during March
2009, CCA opened a 60-day line of credit for $400,000, which it subsequently converted to a 6-
year mortgage loan on May 18, 2009. According to CCA officials, the proceeds from both lines
of credit were used to cover operational expenses. CCA was required to assign all rental income
from current and future tenants to these loans. However, while the average minimum monthly
loan payments were $14,650, CCA’s monthly rental income currently averages $5,000.

Other Issues Potentially Affecting Financial Position

      Recently, CCA was notified that health insurance costs would be increasing 26 percent.
       Last year, due to a 3 percent increase in health insurance costs, the Board of Directors
       increased the employees’ contributions for the health insurance benefit from 10 percent to
       15 percent and is reluctant to increase their contributions again. Health insurance
       benefits are available for any CCA employee working over 20 hours per week, which
       means almost every CCA employee qualifies for this benefit.

      A year ago, CCA discontinued until July 1, 2009, the 403(b) match to its employees’
       retirement contributions. At the May 2009 board meeting, the match was reinstated
       beginning July 1, 2009.

      CCA was unable to provide any solutions that would mitigate the gap caused by the
       increased health insurance costs and the resumed 403(b) match.



                                                5
      Beginning June 15, 2009, the Office of Head Start placed CCA on cash review to
       safeguard future Federal funds.

      CCA plans to renovate the Monroe Center building. Because the Monroe Center is a
       historical building, CCA is eligible for a low-interest loan and a grant. At the time of our
       site visit, CCA anticipated funding these renovations with the loan, the grant, and
       donations from private individuals.

LACK OF EFFECTIVE FINANCIAL MANAGEMENT SYSTEM

CCA lacks an effective financial management system. Section 642 of the Head Start Act states
that a Head Start agency must document strong fiscal controls, including the employment of
well-qualified fiscal staff with a successful management history. Furthermore, 45 CFR
§ 1304.51(h) requires a grantee to establish and maintain an efficient and effective reporting
system to generate periodic reports of financial operations and official reports for Federal
authorities.

(1) CCA could not provide accurate, current, or complete financial reports of its HHS-sponsored
program, nor was it able to generate official reports indicating the current financial status of the
program.

       (a) CCA did not complete or submit the audited financial statements for FY 2008 by the
       March 31, 2009, deadline required by OMB Circular A-133.

       Additionally, as a result of this audit, the independent auditors provided CCA with
       several adjusting journal entries that needed to be made to reconcile the trial balance and
       general ledger with the audited financial statements. The adjusting entries were made on
       July 7, 2009.

       (b) As of July 9, 2009, financial statements for the month of May 2009 had not been
       finalized. The most recent finalized statements were for the month of April 2009.

       (c) CCA submitted its most recent SF-269 on June 1, 2009, for the quarter ended April
       30, 2009. CCA stated that the report it submitted to ACF on June 1 was incorrect and
       would need to be resubmitted.

(2) Inventory:

       (a) During a discussion of equipment inventories, CCA stated that discrepancies have
       occurred in the past because equipment is sometimes moved from one location to another
       without notification.

       (b) Previously, the Early Learning Coalition of Brevard County (Coalition) noted
       inventory errors during its September 2007 review. For example, the inventory listing
       CCA provided to the Coalition did not provide the source of funding, and CCA did not
       provide the Coalition with a fixed asset depreciation schedule.


                                                 6
       (c) Subsequent to our site visit, CCA provided us with a listing of its assets. CCA stated
       that an inventory was in process. However, there were no notations that would indicate
       that an inventory was in progress.

       (d) Additionally, CCA was unable to provide evidence of their prior completed
       equipment inventory. Regulations (45 CFR § 74.34(f)) require grantees to maintain
       accurate property records to safeguard against theft.

(3) Reconciliations:

       (a) CCA did not always perform its bank reconciliations timely. The account balance on
       the reconciliation did not always agree with the account balance shown in the general
       ledger. Additionally, the payroll account was overdrawn for 2 consecutive days in
       December 2008. Bank reconciliations did not always show evidence of management
       approval. Sometimes the preparer and reviewer was the same individual.

       (b) The accounts payable and accounts receivable aging schedules did not reconcile to the
       general ledger.

       (c) Four of the ten accounts on the detail schedule supporting CCA’s most recent SF-269
       did not reconcile to the general ledger.

Without proper reconciliations of accounts, CCA could not ensure that correct information is
reported on its financial status reports.

(4) Checking Accounts:

       (a) One of the four checking accounts CCA used for non-Federal money required only
       one signature on checks.

(5) Financial Department Staff:

       (a) CCA hired its Finance Director late in December 2008 without prior ACF approval.
       One part-time Finance Department position was eliminated to save costs.

       (b) In the FY 2008 audit report, the independent auditors noted that staffing shortages in
       key accounting and finance positions led to a delay in analyzing the fiscal year-end
       accounting records, which delayed the auditors from beginning their audit procedures.
       Several years ago, CCA lost two experienced staff members, who had at least 10 years’
       experience working for CCA, from its Finance Department. CCA has had four people in
       the Finance Director role in the past three and a half years. With the Finance
       Department’s small staff (three full-time employees), segregation of duties is limited.




                                                7
IN-KIND VALUATION AND REPORTING

CCA does not always value or account for the non-Federal matching portion of its budget in
accordance with 45 CFR § 74.23, which provides regulatory guidance that all cost sharing or
matching contributions, including cash and third party in-kind, must meet.

(1) In-Kind Revenue

       (a) The forms that CCA used to record In-Kind Parent Involvement time do not contain a
       place for the parent volunteers to sign their names or the time signed in and out. CCA
       did not provide us with sign-in sheets that document parent involvement. The parent
       volunteer did not prepare the forms; instead, a CCA employee summarized the forms.
       Without verifiable documentation of the time volunteers actually spent in Head Start
       activities, we were not able to determine whether CCA was correctly claiming parent
       involvement as in-kind.

(2) In-Kind Expense

       (a) Some In-Kind Expenses, such as donated supplies, contained clothing items (flip flops
       and children and adult clothing) that are unallowable pursuant to 45 CFR
       § 1304.40(b)(1)(i).

       (b) In-Kind Occupancy Expense, as of March 2009, was overstated by approximately
       $2.7 million.

1. During our site visit in July 2009, CCA provided us with two sets of documentation to
support the monthly In-Kind Occupancy expense amount recorded on its general ledger. The
first set of documentation CCA provided showed that it calculated the monthly In-Kind
Occupancy expense as $62,487 or $749,844 annually. A CCA employee determined this
valuation by calculating the average of local commercial rental rates for similar property in the
area for seven CCA facilities.

Later during our site visit, CCA provided us with a second set of documentation to support its
In-Kind Occupancy expense that showed the In-Kind Occupancy expense for 8 facilities (the
original seven facilities plus an additional facility) as $71,830 per month or $861,960 annually.

CCA explained that its In-Kind Occupancy expense calculations differed because during late
February or early March 2009, CCA decided that the In-Kind Occupancy expenses it recorded
on its general ledger were undervalued. Therefore, CCA attempted to “catch-up” this amount.
The catch-up amount CCA posted to its general ledger for March 2009 totaled $2.5 million. This
adjustment, in addition to other related transactions, resulted in an In-Kind Occupancy expense
balance of $3.5 million on CCA’s general ledger at the end of March 2009.

CCA’s “catch-up” amount of $2.5 million was 40 times greater than its initially calculated
$62,487 monthly In-Kind Occupancy expense amount and 35 times greater than its revised
calculated $71,830 monthly In-Kind Occupancy expense amount.



                                                 8
Based on the amount that CCA said was its correct annual In-Kind Occupancy expense ($71,830
x 12 months=$861,960), CCA’s general ledger balance for In-Kind Occupancy was overstated
by approximately $2.7 million ($3.5 million minus $861,960) at the end of March 2009.

2. CCA’s President/CEO indicated that the large variance in In-Kind Occupancy costs from
February to March resulted in questions and a discussion at the Board of Directors meeting.
However, the only reference to this discussion was in the May 26, 2009, minutes that stated the
in-kind variance was due to the Children’s Festival.

3. The March, April, and May 2009 general ledgers did not show journal entries to correct the
In-Kind Occupancy errors.

COLLATERALIZED PROPERTY

Contrary to regulatory guidance (45 CFR § 1309.21(b)), CCA did not obtain the written
permission of HHS prior to using two properties, in which the Federal Government has an
interest, as collateral for a loan as required.

A loan in the amount of $400,000 has been secured by two properties in which HHS has an
interest—the Marjorie G. Olsen Center and U.F. Gibbs Center. The Federal Government’s
interest in the Olsen Center was established approximately 10 years ago. The Olsen Center was
purchased with city, county, private, and HHS funds. The Federal Government’s interest in the
Gibbs Center was established approximately 8 years ago. The Gibbs Center was purchased with
some outside fund-raising and a grant from HHS.

CCA stated that it wrote a letter to HHS on June 9, 2009, requesting permission to use these
properties as collateral for its $400,000 loan, but HHS has not responded. An unsigned letter
was produced to support this statement. However, the loan documents were finalized and signed
on May 18, 2009.

FINDINGS BY OTHERS

For the last 3 years, Child Care Association of Brevard County, Inc. has been reviewed by, or on
behalf of, multiple funding agencies: the Coalition, the Florida Agency for Workforce
Innovation (AWI), and Florida Department of Health (DOH) (for the USDA Child Care Food
Program). Each of these agencies cited multiple issues surrounding the financial management
and viability of CCA.

Early Learning Coalition of Brevard County: Prior to 2008, CCA operated two State-
sponsored programs: voluntary pre-kindergarten (VPK) and school readiness. With the creation
of the Coalition in 2000, childcare organizations were placed under a more structured contract
review of budgets and expenditures. From 2005 until 2007, the Coalition monitored and
reviewed CCA’s corrective action plans. During these years, CCA operated under a fixed-price
contract, which required little accountability to, or oversight by, the Coalition. During 2007, the
Coalition said it worked with and trained CCA on contractual compliance. Towards the end of
June 2007, the Coalition performed a review of the fixed-priced contract. During this review, the



                                                9
Coalition unsuccessfully attempted to reconcile the program expenses to the contract. The
Coalition noted similar problems with like organizations across the State. Because of these
problems, the AWI encouraged Coalitions statewide to transition to cost reimbursement contracts
with its childcare providers. Subsequently, CCA was extended a 6-month cost reimbursement
contract. This 6-month contract, which ended December 2007, allowed the Coalition to monitor
contractual compliance with all fiscal terms and conditions. The results of this monitoring led
the Coalition to provide CCA with 45 days’ notice that the contract would not be renewed.
Beginning January 2008, the Coalition brought program operations for these programs in-house.
Additionally, the Coalition hired about 12 of CCA’s employees during the transition.

Florida Agency for Workforce Innovation: AWI provides funds for the VPK and school
readiness programs. These funds flow through the Early Learning Coalitions across the State.
As the oversight agency, AWI is responsible for monitoring and reviewing the management of
these programs. On February 2008, AWI published a report of its review of the Coalition.
According to this report, AWI found that the Coalition’s overall implementation of policies and
procedures was erratic and unreliable largely due to the poor performance of its contractor,
CCA. The report also said that CCA sustained systematic eligibility determination errors that
seriously marred the effectiveness of the program. This finding further supported the Coalition’s
decision not to renew CCA’s contract and bring the programs in-house.

Florida Department of Health: DOH administers the USDA Food Program used at Head Start
and childcare facilities in Florida. DOH performed a review of CCA’s food program during
February 2008 for the budget year ended 2007. Some of DOH’s findings were: lack of
transparency in the accounting software, CCA paid its providers late, expenses reviewed were
overstated and not fully documented and monthly claims exceeded the budget amount. In
addition, CCA: did not maintain or submit Personnel Activity Reports, did not monitor or
provide oversight to its providers, failed to review providers’ monthly claims, and made
eligibility determination errors. DOH issued CCA a Notice of Serious Deficiency as a result of
this review. In response to this notice, CCA was required to address each finding in a corrective
action plan. Initially, CCA submitted an incomplete corrective action plan that DOH did not
accept. DOH then extended the deadline for submission of a complete corrective action plan.
DOH rejected the second submission because it received the plan one month after the due date.
In October 2008, DOH proposed terminating CCA’s contract and disqualifying a number of
CCA Board members from participating in the program in the future. Furthermore, DOH
proposed barring for 7 years the President/CEO, two board members, and another employee
from serving as a principal in any institution that participated in the childcare food program. On
November 10, 2008, DOH withdrew its case against CCA stating that further review of CCA
would be necessary to determine if CCA was financially viable.

DOH performed another review of the program during December 2008. As a result of this
review, CCA entered into another corrective action plan.

Earlier this year (2009), DOH initiated another review of CCA. As this review is not yet final,
no report has been issued. However, based on conversations with DOH personnel, similar issues
as those previously noted are recurring.




                                                10
RECOMMENDATION

In determining whether CCA should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
CCA’s financial condition.

CHILD CARE ASSOCIATION OF BREVARD COUNTY, INC. COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

CCA’s written comments on our draft report included corrective actions it had taken or planned
to take regarding our findings. CCA also provided documents that it believed would provide
additional information relative to the report’s findings. CCA offered the following comments.

Financial Position Not Sufficient To Meet Operating Obligations

Child Care Association of Brevard County, Inc. Comments

CCA said that its Board of Directors (Board) had approved a financial sustainability plan, which
it included in its comments as an exhibit. The plan showed $773,000 in projected savings and
revenue initiatives that CCA was implementing for the 2009-2010 year. Concerning our finding
that CCA’s rental income was not sufficient to meet its total loan commitments of $14,650 per
month, CCA said that its rental income was actually $6,900 per month rather than the $5,000 we
reported and that we did not include other proceeds that it had committed toward paying the
debt, such as individual donations, proceeds from fundraisers, and sale of property.

CCA said that the Board authorized a reduction in staff to mitigate the effects of the health
insurance increase and the reinstitution of the employees’ 403(b) match. CCA also said it did
not plan to borrow money to renovate the Monroe Center complex but would rely on community
organizations for assistance in the renovation and continue to pursue grants for the project. CCA
believes that, once renovations are completed, it could lease additional space, or, if needed, CCA
could relocate staff to the Monroe Center from its downtown space, which it could then sell.

Office of Inspector General Response

CCA’s sustainability plan only shows the savings and revenues CCA is projecting for the 2009-
2010 year. CCA did not provide any information on what progress it had made to date in
reaching these projected savings and revenue goals. In regard to CCA’s rental income, CCA
only provided us with documentation that showed an average of $5,000 of monthly rental
income. Nonetheless, $6,900 of monthly rental income would not be sufficient to pay the
$14,650 per month loan obligations. While CCA said that it had also committed individual
donations, proceeds from fundraisers, and sale of property toward paying the debt, it did not
provide any specific information about how much money it has actually generated from those
other sources.




                                               11
CCA also did not provide any details regarding the extent to which it had obtained community
support in renovating the Monroe Center complex or the results of its efforts to obtain grants for
the project.

Lack of Effective Financial Management System

Child Care Association of Brevard County, Inc. Comments

CCA said that it had not submitted its FY 2008 audited financial statements to ACF on time
because of new staffing in the department and the auditor’s workload. CCA had obtained ACF
approval to submit its FY 2008 audited financial statements late. CCA said that it had a financial
firm working to ensure that it submitted the subsequent audit on time.

In response to our findings that: (1) as of July 2009, financial statements for the month of May
2009 had not been finalized and (2) CCA’s quarterly SF-269 report to ACF was incorrect and
would need to be resubmitted, CCA said that it had reviewed its processes to streamline
functions, thus allowing for timely generation of accurate financial reports.

CCA said the inventory audit, which the Coalition conducted, only found two errors. CCA also
said that it provided the Coalition with a fixed asset depreciation schedule as a corrective action
item following the receipt of the Coalition’s report. CCA further said that all fixed assets were
accounted for.

CCA said that it had provided OIG with a packet of information that included the form being
used for the inventory [that was in process at the time of the OIG’s site visit] and documentation
of progress made to date. CCA said that this inventory was completed on August 24, 2009.

In regard to the checking account that only required one signature, CCA said that the Board will
evaluate the need for two signatures. According to CCA, this checking account did not house
any Federal funds.

Office of Inspector General Response

CCA did not address whether it had finalized its May 2009 financial statements or whether its
financial records were up-to-date. CCA’s Board and its management cannot make sound
decisions without current and accurate financial information. In addition, CCA did not provide
any documentation to show the outcome of the processes it reviewed or the functions it
streamlined that would allow it to submit timely and accurate financial reports.

In regard to CCA’s comment that it provided the OIG with a “packet of information” which
documented its progress in completing its inventory, the “packet” we received after we
completed our on site work consisted of a memo dated July 30, 2009 that: (1) stated that CCA’s .
. . inventory is still in progress. . . .”, (2) described the extent of the inventory (number of sites
that housed equipment that needed to be inventoried). The packet also included a copy of a
blank “Inventory Listing” form that CCA said it was using and a 15-page listing of CCA




                                                 12
equipment. The packet did not include any information about the progress of the inventory or
when it was scheduled to be completed.

CCA did not provide any evidence that the checking account did not house any Federal funds.
Regardless whether the checking account contained Federal funds, a good system of internal
control should include an evaluation of the need for more than one signature on a checking
account.

In-Kind Valuation and Reporting

Child Care Association of Brevard County, Inc. Comments

CCA said that volunteers must sign their names and note the time in and out on their timesheet
for each day worked. Each week, the head teacher at each center tallies the total volunteer hours
and forwards them to the central office. A central office staff person then prepares an Agency-
wide monthly summary report of volunteer hours. In regard to in-kind items, CCA said it only
counts those items that meet Federal regulations.

CCA said that it had corrected the $2.7 million in-kind overstatement error. CCA further said
that its in-kind total for FY 2008-2009 was now $1.7 million, which exceeds the in-kind
requirement.

Office of Inspector General Response

The documentation CCA provided to us while on site to support its monthly in-kind reporting
did not include the volunteer time sheet that CCA mentions in its response to the draft report.
Since we were only provided a blank example of the timesheet supposedly used, we still have no
basis to evaluate the in-kind contribution of parent volunteers. The weekly summary sheets
prepared by CCA staff were not considered adequate evidence to support the volunteer time of
parents.

In addition, CCA did not provide any documentation to support the validity and reasonableness
of the revised figure, $1.7 million.

Collateralized Property

Child Care Association of Brevard County, Inc. Comments

CCA did not directly address our finding that it did not obtain HHS’s written permission prior to
using two properties, in which the Federal Government has an interest, as collateral for a loan.
CCA included as an attachment to its written comments a letter from its Board Chairman to HHS
requesting approval to use property with a Federal interest to secure the loan.




                                               13
Office of Inspector General Response

The letter CCA included with its comments is unsigned and dated June 9, 2009, which was
approximately a month after CCA secured the loan on May 18, 2009. (See the Appendix, page
24.) In this letter, CCA did not describe the property that it used as collateral for the loan nor did
it describe the Federal Government’s interest in the property.

Findings by Others

Child Care Association of Brevard County, Inc. Comments

CCA did not agree that the results of the Coalition’s monitoring led to non-renewal of its
contract. CCA said that the Coalition did not renew the contract because it believed it could
serve more children and save the administrative fees that were being paid to CCA. According to
CCA, the Coalition never provided any verbal or written notice that its contract would not be
renewed because of audit findings.

CCA said that the DOH ruled in November 2008 that the findings cited in DOH’s February 2008
audit could not be substantiated. CCA also said that DOH never said that “further review of
CCA would be necessary to determine if CCA was financially viable.” CCA further said that the
statement in the report, “. . . based on conversations with DOH personnel, similar issues as those
previously noted are recurring” was not based on a completed audit or on a final report.

Office of Inspector General Response

We do not agree with CCA’s assertion that the Coalition never provided any verbal or written
notice that its contract would not be renewed because of audit findings. In it’s Contract
Compliance Report for the period July 1 through October 31, 2007, the Coalition reiterated the
contract renewal language contained in the six-month contract with CCA that said: “[t]his
contract may be extended for an additional six (6) months based on the following: Within three
(3) months of contract execution, the Sub-recipient will be monitored to ensure contractual
compliance with all fiscal terms and conditions. Results of the monitoring will be reviewed by
the Coalition to determine overall fiscal compliance. An assessment will be made regarding
contract continuation through the end of the fiscal year (June 30, 2008) no later than November
15, 2007.” In a letter dated November 11, 2007, the Coalition notified CCA that “in accordance
with your contract, an assessment has been made regarding contract continuation. . . . The
Coalition Board of Directors unanimously approved non-renewal. . . .”

We also do not agree with CCA’s contention that DOH never said that “further review of CCA
would be necessary to determine if CCA was financially viable”. In a letter dated November 14,
2008, from the DOH Field Operations Manager to the CCA Executive Director, DOH said that it
would “. . . initiate further inquiries to determine whether or not Child Care Association of
Brevard, Inc. is financially viable and had proper financial management to determine whether or
not the serious deficiency identified in the Notice of Serious Delinquency of February 27, 2008,
has been fully and permanently corrected.”




                                                 14
In a July 2, 2009, conversation with DOH personnel regarding its current review at CCA, DOH
said that they were experiencing the same problems obtaining information and following
documentation as they had in the past.

The complete text of CCA’s comments is included as the Appendix.




                                             15
APPENDIX
                                                                                                       Page 10f25


APPENDIX: CHILD CARE ASSOCIATION OF BREVARD COUNTY
                     COMMENTS




                       O,i/iJ Care AssocitlliOll of Hrel'anJ COIIIII),. lite.
                           comnlllni/y child care coordinating agency
                 18 HARRISON STREET, COCOA. FLJ2!t21 ° PIlON E (l2!(   ~.J500   • FAX (321) 6,J4·l5U
                 Wfbsilr: II"ww,childca r ebrenm.l. co l11 • [m ail : info@;t hildca rebrflllrd.co m



 September 14, 2009




 Mr. Peter J. Barbera 

 Regional Inspector General for Audit Services 

 Office of Inspector General, Region I V 

 6 1 Forsyth Street, S.W. , Suite 3T41 

 Atlanta, Georgia 30303 


 Re :   A-04-09-03529

 Dear Mr. Barbera:

 Enclosed is the Child Care Association of Brevard COWlty. Inc. ' s response to the audit
 which is s ubject to review and revision. We appreciate your review and provide our
 response, mc\uding lllcorporalion of corrective actions, as appropriate. 111 the attachment.

 We respectfully request a cmeful review of our comments and documentation provided
 for clarity.

 Sincerely,




 Dr. John Stonn , Cha innan 

 Board of Directors 

                                                                                                  Page 20f25




                           Response From 

         the Child Care Association of Brevard County, Inc. 

                        to the Report By the 

                   Office of the Inspector General 


Rererence A-04-09-03529


See Exhihit A - Quality Impro\'enll'nl Plan

    I.     Financial Position Not Sufficient to Meet Operation Obligations

           a. 	 Page 4, 3fd full paragra ph: D1Iring FYs 2006, 2007. and 2008 and (he 10 months
                ended April 30. 2009, eCA's cash posilion wm not suffiCient/a meet il.~ operating
                expenses and debt obligations. ..
                The Agency's Board of Oi.recIClI'S has appro"ed a Financial Sustainability
                PI:III. [Ex hihil H1

                         nd
           b. 	 Page 5. 2 full paragr3ph, last IWO sentences: "CCA wm required 10 assign all
                rental income/rom current andfillllre lem:mls /0 Ihes(! loam', However, while lhe
                average minim1l1l/Illonthly loan pa)71lents were 514.650. CCA 's monthly rental
                income currently averages $5,000. ..
                The Agency did commit rcntal incomc toward tltis dcbt. Rcntal incomc
               a\'erllges $6,9()() monlhl)', nol S5,()()(J as slaled in till' report. Omitled werc
               the othe r pmceeds committed toward p:lying this debt: I ) individual
               donations. 2) proceeds from fwul!' list'rs; and 3) sale of pl'opcl1y.

           c. 	 Page 5, last bullet at the bottom of the page : "eCA was unable to provide any
                solutions that would mitigate the gap caused by the increased health insurance
                costs and (he Slimmed 40J(b) mCllch. "
                To dll.I'ify. the ROll nl of Dh'cctol'S authorizcd II rcduction in staff to II bsorb
                hcnllh hlslII'ance incl'casH; ami the I'cillst:l1emcnt of the 403(b) match.

           d, 	 Page 6, 2nd hullN alt op of the page: "CCA plam to renovate the Monroe Cenler
                 bId/ding. Beca1lse the Monroe Center is a historical bllilding, CCA is eligib/efor
                a low-intereslloan and a grant. A I the time ofollr site visit. CGA anticipated
                fimding these renovations with the loan, the grant, and donations from private
                individuals. .,
                 Monroe C enter is not a single buildin g but II cOlllplex of II buildings. The
              Agency is nol pursuing borrllwin g money for this pnlject; community
              organi7,ations and \'oluntt'~' I'S :11'1' assis tin g ill I'entn'atj()n of th e facility , and


1
                                                                                                    Page 30f25




              WE' l'ontinue to pUl's ue gra nts for tli£- project. It should a lso be noted that
              1'l 'lIo" a ti uII u rthis cOlllplex could g r e:tlly chan ge th e   Agen c~"s   fimm cial
              position. O nly 3 of 11 bui,ldings at Monroe Cente r a rc cUI'I'clllly 04.:c upictl .
              Rt' lIm' ation wi.ll p rfn' id e nn uth el' 4 U,OUO+ squ a re reet uf Splice Ih:I' {,uuld b..
              lellsed . Th e s pace co uld also hou se a ll the Age ncy's !it :lll" tha t is c UITl'ntly
              located in a prilm" dow ntown location. wh.k h then could be least'd for top
              d o llar III' sold .



    II.   Lack of EOi::cti v<:: Finallcial Managem.::nt System

          a. 	 Page 6, item ( 1) (a): "eCA did not complete or submit the Gudi/ed[inancial
               sratemems!orFY1OO8 by rheMa/'ch 31. 2009. deadline required byOMB
               Cireu/arA-133 . ..
              The llUdil r"e pm1 w as de layed due to II t'W stl.lfill t he de partme nt and th e
              a udit firm 's wOI'kload. A lette r rrom til{' :mdhOl' WIlS issued and a letter
              requesting a n exte-nsion WtlS submi tted and a pprowd. ISce Ex hibits C, 0, E.I
              T he Age- nry has a fin tl ndal finn workin g to ensu re that t hr sll bsrq lle- nt audit
              is completed on time.

          II. Page 6, item ( I ) (II ) and (c): '"As ofJllly 9, 2009 finanCial Sialemenisfor lhe
              lIIonth OfUCly 2009 hCld not beenfinClfized. The IIIOS/ recent finClfized S/Cl/elllents
              were for IheMonlh ofApn'l 2009. eGA slIbmilled II'S most recenl S};'.269on Jllne
              I , 2009 for Ihe quarter ended April 30. 2009, CCA stated that the report il
              .mbmilled loACF onJllne , was incorreCI and wOllld need 10 be resll bmilled.
              T he Age ncy has I't'viewed its PI'OCesS4'S in ont t'r to stt't'amlillt' run d io ns thu s
              a llowin g ror tum'ly gcnel'ation or accur :ltc repo rts and fm and ai d ocuments,

          c, 	 I'ago: 6, Ial;t paragraph: "Prel'lollsly. the Early Learning Coalilion ofBrel'ard
               County (Coalition) nOled inventory errors dllring its September 2007 review, For
               example, the invenlOlY 1i,1'ling eCA provided 10 the Coalilion did not provide the
               source offimding, and CCA did not provide the Coalilion with a fixed asset
               depreciation schedule, "
              The in \'Clltory a ud it condurted by t he Early Learning Coalition round only
              two erl'OI'S tha t were del' lIIed by the Coalition to be unaccepta ble. t ) There
              wa.~   no a m o unt s h o,,'n Oil t he inH'IIIOI) ' listing ro rm. T lu' rOl'ln used ,,'as
              pro \'id ed to CCA by t he Coalition a nd Ihey rll iled to include a ficld ror t he
              a mount. T his was corrected by the Conlitioll. 2) CCA did not pl'Ovidc a
              fixed asset dc predn tioll sdu'dule, T his was pro\'idcd as a rO I'rccth'e action
              item rollow in g Ivccipt orlhe I'epoli, All fixed assets we lv acco un ted rO I'. [See
              Ex hi bit F, I

              T he I'e_po li states that one error was t hat no soul ...~e or funding was pro\'ided
              w ilh th .. in \'C nt lll)' listin g. T hi s VnlS n llt a findin g Or thi s audit. Ag:lin, the
              ill\'entory listin g ronn wns pro\'ided to CCA by t he COIl liti on a nd included



2
                                                                                                  Page 40f25




                 oldy the seH"n (7) items purchased with Coalition fund s: there was no othe r
                 sour'ct' o f funding.

             d   Page 7. lop of page, item (c), last sentence: .. '" there were no nolations thai
                 wOllld indicate thaI an inwnlOry was in progrc.\·s. ..
                 T he a udit t eam r E'('eiw." d a packct of infol1uation that included the for'lII being
                 used ftw th e aud it ami docum e ntatiun of PI"Ug'''ss mad e to date. [See Ex hibit
                 !i·1
                 The in n'uto,)' wa s cfllllph·ted till August 24, 21109.

             e. 	 Page 7, item (4) (a); "One ofthe four checking accounts eCA Ilsedfor non­
                  Federal money required only one signal1lre on checks. "
                  T his lIe.connt was :mlhorized by th e Iloanl of DirC('lol'S for ,'cnta l incom(' a nd
                 geul'r.tl do nation s. These fund s :tn' used to (lay ror it e m s not a llowable by
                 ~gula tioll. and arc a lso used for emergencies. As noted , this accou nt
                 conta ins non-fedel'l'll fund s and there is no rcquil'Nllent fo r m ore than one
                 signahlre at this tim e, Howe\'er, th e Board will e\'aluate the mh i sab ility of
                 requirin g two signatures, con sistent with fed eral guidelines, as furthel'
                 financial safe guard to mitigate any con cern.

             f. 	 Page 7, item (5) (a): " CeA hired irs Finance Director [ate in December 2008
                  wi/hont prior ;lCF approval, ..
                  Il ead SIa l1 staiTin At lunta was fuUy infol1l1ed thl'Ou ghoutthe p rocess of
                  recruitin g, inten'iewing and hiring of the nnan{'e J)irectm', The Finance
                  I1iI'ec.t ul'wtls hiloed in Iwce mh l'l' 2(N18 :IHl'r pl'lwidin g more than three full
                  m onlh s ofsen'ifes as a contract eonsultant, \Vhen fil'St contracted. her
                  l'eSU1l11' was sent to Atlanta alld sh:lred with HI':ld Start staIT. \\' h l'lI Hl'lld
                  Slart slaff call1i' 10 the a gency in Sepll'lI1bl'l' 2008, to conduct :1 fin a ncial
                  :tudit, Ihey had an oPJHJrtunily 10 speak to the candidate and ,'oiced their
                  appnJ\'a l. They lI1el with he l' a gain in Octo ber at a risk lI1a nagellll'nl 1I1t.'t'l ing
                  in Atlanta, When the dec.ision was m ade by Ihe Board to offer the position to
                  Ihe c:mdidale, nutifiC:ltioll was st'nt to t he Age ncy's PI'Ogr:.t1l1 Specialist in
                  Atla nta, No written response 01' ack nowled ge ment hilS been reeeind. ,See
                  Es hihi t H"


    III, 	   In-Kind Valuation and Reporting: eCA does not always value or account lor the
             non- Federal matching portion o f its budget ill accordan ce with 45 eFR § 74.23.

             a, 	 Page 8, item ( 1). full par3graph: "Theforms thut CCA /lsed to record In--Kind
                  Parent /nl'olvemenltime do nol contain a place for the parent I'olllnleer.~ la sign
                  Iheir names or the Illne $igned In and 0111, ..
                  Each of lhe 17 cen t l'~ utili7.l's a ,'oluntl'e r time sheet fur parent :mtf
                  community \'olu ntecrs. The Agcncy h as II .....ell-cstablished pJ'occdu l'{' foJ'
                  accounting fol' parent un·oh·ement t ime thai ensurt's fuJI complia nct'.


3
                                                                                         Page 50f25




        Voluntel'r'S must sigu th ei r nanll' ami no'e th e lime ill and th e time o ul for
        eJlch IIny w orked on their tilll{'Shccl. On :1 wcckJy basis, the heml tcachel' al
        each ce nte r tlillies the totl.1 nliuntl't' l' hou rs fu r ea c h per.;o n and includes that
        1111 II SUllllllary s heet :dnng with a w eekly total of all donated goods a nd uther
        st' nices. '" ('("kJy sUllunalJ' she(>ts a r e (o (wanted 10 the ,,('ull'al office where
        II CCA s taff JH'r'Son pn' p:lI'e!i an Agenl'y~wid e monthly s ummlllJ' re po rt. Th,is
        process a nd the aecume), of the da ta are rlUdilM as pa rt of th" A~cllcy's
        C llntinunus Qm.lity Imprll\'l'me nt Plan. ISel' Exhihit        Lt

    b. Page 8, item (2) (a): "Some In-Kind Expenses. slIch as dono/ed sllpplies.
       contained clolhing items (flip flops and children and adliit clothing) thai are
       unallowable p1lrsuanr 10 45 CFR § J304.40 (1;)(I)(i). "
       The Agl' nl'Y accl' pls, d oculIIl'nls and acknowll'dges all donated good s
        rt'cein'd fmm the community. and t.hese itellls an' pn"'idL'tI to the children
        and ramUi l'S who need thl.'lII, Howew r, for thl' purpose of meetin g t he 1I0n­
        fl.'llc:l-u1 sha,'c rcqtUI'Clllcnl, Ihc Agl.'Jlcy only coun ts Ihose itcllls which IIIcel
        with "I.'gula tions 45 e rR ~ 74,23 and 45 e FR § 1304.40 (1) (I),

    c. Page 8. item (2) (b): ·'/n-KindOccllpancy l:..").:pense. as ofMarch 2009. was
       overstated by approximately $2. 7 million. ..
       T his E'l'I"OI' has been cOI1'('cttd, Tht total in kind fol' Marc h 2009 has bt en
       :Idjustl'd to 5103, 70 7.91. The tot:11 in-kind sec ured for FY 2008.-2009 was
       SI , 711 ,293.43, which cxcccds thc I'cquiJ"t~lIl c nt.

    d   Page 8, 1lumbe r I, first and s..: cond pam graph ~: "During OUI" site visit in Jllfy
        2009, CCA p rovided li S with two sets ofdOCllmentotion to slIppon the monthly In­
        Kind Occupancy expense amounl recorded in ils general ledger. "
        The fil"!!t set of doculllent:lti o n did 1I0t include a ll t'ight facilities. The !:iecOild
        set ufdo('umentation co rn'efed that e rror.

    e. Page 8, 11umber 1, paragraph 3: "CCA decided that the In-Kind Occupancy
       expenses it recorded on its general ledger were IIndervalued. Therefore. CCA
       ouempted to "catch lIP" this amOlw lS. The catch lip amount posted to its general
       ledger for March 2009 £Oraled $2.5 million. .
        This e n ·or· ha s bL't.'n clIITeded, Th e tufal in kind fill' March 21M)9 ha s bel'li
        adjustcd 10 5103,707.91 , Thdolal ill-kind Sl'('ured to r FY 2008-2009 was
        S I,711 ,293.43, which excecds th c .'cq uirclllcnt.

    f   Page 8, number 1, paragraph 4: "CCA·s "catch-lip ·· amollnt 0[2.5 million was
        40 times greCller than its initiafly calclliated 562.487 monthly In Ki nd OCCIlPcmcy
        erpen.~e amount and 35 times gre(Hel" than its ,.evi~·ed calculated 5 7J.830 monthly
        In Kind Occupancy e:xpense amollnt. "
        This ermr ha s bee n clllTI'cted. Th e total in kind for March 2009 has been
        adjusted 10 SI03,707.91, based IIl1l11unlhly occupancy of S7 1,H30. The tota l



4
                                                                                           Page 60f25




              in-kind sE'curcd for FY 20OS-2009 was SI.711.293.43, whidl exc(>eds th e
              rcquir'clllcnt.

          g. Pag.:; 9, paragraph I: "cell 's general ledger balance for In-Kind Occupancy was
             Ol'e,..~laled by approximately S2. i million althe end ofMarch 2009. ..
             This urnr has been ('ol1'(>('lhl. ThE' 10Iai in kind for i'\'lan:h 2009 has been
              adjusted to SI03,70 7.91. TIll' tul:11 in-kind sl'cul't'd for FY 2008-2009 was
              SI .711,293.43. which e).:eccds the rcquir('mrllt.

          h. I'ago: 9, nu mbe r 3: "The March. April. and May 1009 general ledgers did not
             show j01lrnal entries (0 correct [he In-Kind Occupancy errors . ..
             This erroz' has been cIIITccit'd. The tolal ill kind fOl' i'\'lal'Ch 2009   W:L~   h('(' 11
              adjustrd to S103, 707 .91 . Th(' total in-kind $('curc-d fo r FY 2008-2009 was
              SI ,71 1,293.43, which uC{'cds the r equirement.

    IV.   Co llateralized Propert y

          a. Page 9, pa m graph ~ 1. 2. and J: "CCA did not obtain the wrillen permission of
             NNS prior to slling two properties. in which the Federal govern lllent has an
             interest, as collateral for a loan as required. "
             Ext("llsh 'c conn'rsatiolls wl'l"(," hdd with f'l'pres<'ntnth'N from thl' Dl'pm111J('llt
             of IlIIS n-garding plans to m eet the sh0l1faU of fWltl s fo r the remai.ndeJ' of
             Ihl' progrmn 10 includt' horrowing fund s. 'Vt' helic\'t'd Ihis 10 ht, :, joinl effort
             of the Depnrtment of lWS :11111 th e ChIld C are Associntioll to sol\'c the
             pnJblelll.

             The A gency rt"('ein."d a line of c!'('dit on Mardi 18.2009, which was
             unst'cul't'd. The line of crt'd it was cOIwel1ed to :,Imlll Oil May 18. 21lt19, I'IHS
             official!! !'i.'quested that CCA notify them if the ba nk would a grt't' to the
             tcrms, which was done.

             A leun of r«Ju cst was submitted to the Departm("nt ofl-ll-lS on JUlie 9. 2009"
             To d:de, no ,"('sponse or acknowll'dgement Ims bl't'll n '<:eh'ed, [Set' Exhihits , ' ,
             -".J
    V,    Find ings by Others

          a, Page 9, para graph 2: "From 2005 IIntil 2007 , CCA operated IInderafixed­
             price contral't, whieh required /illle aecolln/ability 10, or ovenighl by, the
             Coalition, "
             [n 2000. local C oalitions W('i't' tstablish ed throughout th e state anti child care
             organizations wl'l" pla(,l'd WIde r th eh' COIllI'llCt I'c\'i('\\'" State-fwllied lixed ­
             p,ice contmcts had been in place fol' decades, and th e Agency was always
             rt'gularl)' audited, and fllund ttl he in ftlll compli:lIlCl' with no findings. Thl'
             Early Lcnnling Cmdition of IJrc\'ard Cotlnty opc mtes only in IJrc\'ard
             COWlty and ('0IlYl'11ed to re imbursement eontraets in 2006"


5
                                                                                        Page 70f25




       "During 2007. the Coolilion said il worked with and Irained CCA on con/rae/llal
       compliance. "
       The Eal"ly I-,l'aming C Olllilin" uf Ure\'aro C ounty nenr pnl\'idl-d          lilly

       Ir.tining to CCA on conlnlclual culllpli:lllce.

       ""Towards the end ojJrme 2007, the Coalition petformed a rwiew of/he fixed
       price contract.
       The loelll e m.lilin" did not peri'onn:1 r l'"k'W oflixed- pricl-d cuntracts in
       .Julle of 2007, with a s ubseq ue nt tnmsili ull to l"t'imhul"lli'mt'nt contmets. Th e
        Coalition cQflvt'11ed fl'OllI :1 tixc-d-prife to l't':imbul"S{"llIc nt l'onlmet in
        I1l'C.l'lIIbl'l' 2UnG., midway throu g h th e 2006-2007 conh"l.lct yl'l.lr.

    b. Page 10, paragraph 1: "AWl encouraged Coalitions statewide to transition to
       cost reimbursement contracts with ils child care providers. Subsequently. eCA
       was ex/ended a 6-month cost reimbllrsement contract. This 6-lIIonth contract.
       which ended December 2007. allowed the Coalilion to monitor contractl/al
       compliance with al/fiscaltel"llls and conditions. The reSlllts ofthe monitoring led
       the Coalition to provide CCA with 45 days' notice that the contract wOllld not be
       renewed. .
       TIl('" Coalition conwned fr'om a fixed -pr'icc to I"('irnbursement eontmct in
       (Hcember 2006.. m id way thr"Ough the 2006-2007 contract year. A WI
       I'lIl'oumgl'd local Coalitions th nJUghout the state to pruvid e servkes in-house,
       anti from 2005 to 2007, til('. ELC of Bl"e"~ll"d Imd gr'adually migrated various
       functioll~ in-hlluse. In ,Iuly 2007, the Coalition extended a 6--month contract
       to th e Agency which entled in I>ecl'mh l'l' 2U07. The Coalitilm's statl'd
       irltention was th a t th ey finally bring aU functions irl-house. Forf)'-fi"e days
       plior til the end of th e cllntr:I(:t, thl' Coalition notitil'd CCA in wl'iting that
       the cllntmd would not be I"I.'newed based IlII th e Coa lition 's assel1ion that
       they could lIe !"'1' more child ren ~Ind s~I,' e the administmtil"1' tCI'S hl'in g paid to
       CCA. Thl'l'e W:IS nl','el' an y "el'hal or written ml'ntilln of nlln- I"l'newal due til
       audit fmdings.


    c. Page 10, paragraph 3: [Findings by the Florida Departmem ofHealth] "On
       November 1O. 2008 DOH lI'ilhdrew its case against CCA stating that fllrther
       review oreCA wOllld be necessary to determine ifCCA was finanCially viable. ..
       On NO"emncr' 10, 2008, Florida Department ofnealth 11I1ed that the findings
       cited in thc audit condu cted during Febnlary 2008 cOlild nol bl'
       s ubstantiated. It was shown t.hat OOH officials had made numerous
       procedural en'ors, had misd a ted actions and commwlicati on s, had
       misaddrl'S.'il'd CIIITI'Spomlcl1I:.e , mid h:ld confusl'd Ih'e":lnl C ounty with
       Drownrd Co unty th.roughout the pr(K~ess.

        0011 neve r statl'd tlmt " further r e"i"w of CCA would he necessary to
        dl'tennine if CCA was filmn ci:llly " i:lhll'."


6
                                                                              Page 80f25




    1I. Page 10. paragraph 5: "Earlier this year (2009) DOlI Initiated Mother review of
        ceA . As this review is nOlyelfinal, no report has been i.wwd However based on
        conversations with DOH personnel, similar isslles as those previo1lsly noted are
       recllJ"ring.
       This is not based   1111 II   cOlllpl eted audit o r:1 final report.




7
                                                                                Page 90f25




      CI-ULD CARE ASSOCIATION             or BREYARD COUNTY, INC. 

                                    EXHIBITS 




A. Qual ity Improvement 1'1311

B. Financial Sustainability Plan

C. Letter to HHS CRe: 15-day Extension for Submission of Audit Report - 3127 /2009)

D. Leller from j·II·IS (Re: Approvul QfExtcnsion to Submit Audit Rcporl - 3/3112009)

E. Letter from Auditor (Re: Delay in Completing Audit - 4/28/2009)

F. A W I/Oll1cc of Earl y Learning Inventory Documents

G. Child Care Association Inventory Listing Form

H. Email to Olissa Williams rc: Finance Dirc<:tor

I. Volunteer Tim\:: Sheet

,J. Letter to Jeffrey Fredericks from Board Chair John Stann rc: loan

K. Letter to Jel'frey Fredt:ricks from Board membt:r WUlldu Knight no::: loan
                                                                                                                                                                  Page 10 of25




                                                                              Quality ImJlron mc nl Plan

{:"~IlIH:              Child Care Assoc iation ofBr""ard Counl y. Inc.
(;",OII~~     II:      04CII3087
I }~ l ~:              9/10:09
1'....... :            John II. Storm
To:                    1'<:\.'1" J. ll>rb.::r:I
Syste m: 1" "",,1,' b"a~e",,,,"                   	                               D~fid('ncy:          I ,...~k..   , ,,mden' cash '0     "' ~llt   op<'''' '''' e ~~ p ~ .."", " nd
                                                                                  d f bl   o bl it~U"" ..




Wor k Comp leted (Di ~c u ~s how yo u hal'!' impron.'d this                                  )~' s l c m   that                    App lica ble Sland a rtb
in f luilcs arc~s of non-cu mpli a nce)
                                                                                                                       4SCFR§ 14 \ 4
1. 	 l ", pl ~ n , ,,, .l ,,rl u n or   nnand~l SUSf" i,,~blll l y   I'bn (SH a u ..., h",..lI )
                                                                                                                       4SCl-' R§14 , ~1


                                                                                                                       4SCI'l~~742-«.)




Nt':Io:1 Steps:
I. Ke .. Iarh ' f"olu ale lind ..... 'is<' " Lan lu mn ;mll<'             rI','c"u~   a nd ",Inilnin .... s l~
                                                                                                                                                   Page 11 of25




                                                                                  Quality ImJlron mc nl Plan

{: "~IlIH:          Child Care Association ofBr""ard Counly. Inc.
(;",OII~~     II:   04CIIJ087
I }~ l ~:           9/10:09
1'....... :         John II. Siorm
To:                 1'<:\.'1" J. ll>rb.::no
System : 1" "",,1,' b"a~e",,,,"                	                                    D~fid('nc~' : I,..."ks~" ~rr~h'~ nn~ "d..1 "'~rutfe",e"l sysle" , It.
                                                                                    a d.-qualdy ''' ''n a ~ and ",,""" nl for ~'''''" ,....1 fu nd ..



Wor k Comp leted (Di ~c u ~s how yo u hal'c impron.' d this                                )~' s l c m   that                 App licab le Sland a rtb
includes arc~s of non-cu mpliance)
                                                                                                                He.d SM" ,\ct• ...ction 647(a) [42 use §
                                                                                                                98411
1. R~" lrw'" pnH"f'S!M'!j to . . ....... "'Ii"'· fUllction. In unle, 10 f ",wnot< II m,iy 

.... pon~ .md d""""w",..                                                                                        45   en § 74.21 (b) 

                                                                                                                Head SIan ,\ct. • eel;"n 642 . I'ower.;.oo
                                                                                                                Funcl;ons orll.ad Sian Ag.:ncics 142 USC §
                                                                                                                9837J. Secli"n 642(;)

                                                                                                                4S CFR    ~   1304.S 1(h)

                                                                                                                O~IIJ   Circular ,\-133 §.23S

                                                                                                                4S CFR § 74.S2{aX1Xi,')

                                                                                                                4S CFR § 92.20{' X2)

                                                                                                                45 CFR § 74.34{f)




Next Steps:
I. C:ollllnuo.. ~ rom         JJ~ " ....:   11"".>1 , - s..bmlssion or ~ ..dl•.
                                                                                                                                                   Page 12 of25




                                                                     Quality Imflronm c nt Plan

{; .....IIIN':       Child Car" ,.......,.,i.,;on of B",,,,rd County. inc. 

Gr" lII~ t jj:        04CIIJ087 

l)aI ~:              911 0,09 

~'   ....   ",:      JoIn. l!. Slonn 

To:                  I'e,er , &
                            J    ""'"
S~'dl' m : f lsc-a l M~na~t"''''l1 	                                    Deficiency: IlId nul ~I ..·~}, ..... Iu ~ or ""eount ror the """_I'.... ~ .... I
                                                                        nml rhln ~ portio"    or ll~   bude<1 In   atttJnID I1 ~   ,,-I.h •·..." .,.1
                                                                        .... eul~ lIo" •.



Work Co mpldctJ (Disc uS$ how you h:ll'(' i mllron'u Ihis SY$ lem that                                               App li cabll'Slanilanb 

i nclud C.!i      area~   uf nun-compl iancl,') 


                                                                                                       45 CFIt   ~   74.23 

       Th~  error m3d.> in "",-,owlling for !n-t.:iml Oi:cup.lnc), for ,\larch 2009, has ,,",cn 

"
C<lITCCh'ti. The 101.31 in.~i"d f.,.. M"",h 200'.1 hllS ...,,'" adjll<\OO 10 Sl 03. 707 .91. ']1", 

\0\.1 ;n-kirnl ..,curcrl for fY 2008·2009 was SUll.2n .43. ",hi"" cxcocds lhe 

fcd<..... IIl.alch requiremen" 





I
Nl'XI Steps:
1. (;""II""""s~or"pli" "r~.
                                                                                                                                             Page 13 of25




                                                                     Quality Imflronmcnt Plan

 {; .....IIIN':    Chi ld Care ,.......,., ial;on of B",,,,rd County. Inc. 

 Gr" lII~ t jj:     04CIIJ087 

 l)aI~ :           911 0,09 

 ~'   ....   ",:   JoIn. l!. SIO"n 

 To:               I'e,er . Ha    '0
                         J       ""
 S~'dl' m : f lsc-a l M~na~t"''''l1 	                                    Deficiency: IlId nul "blal" 111110 ~ppr,... ~llM>ru .... !i<'<'u rlnl ~ b~"k
                                                                         loa n " 'llh P"'I'<'I"Y In ... hlch , .....'..d<n11II!",'<rnmcnl ha . an Inl~n"SI.



 Work CurnplClcd (Dj~cuss how you hal'c Impnwcd Ihis system thaI                                                    App liublc Standards 

 includes areas uf non-compliance) 

                                                                                                      4~   CFR § 1)(l9.2 ](3)

 1. O"~oi"~ ("mmunlcaU<H' ,,-III. III.I S affida ls         ",~ao:Jl"2   ph,ns for loan, I..,Uor      45 CFR    ~   1309.21(h)
 ....quest ~ubl11llt~d: almitln~ rt'Spoo,sr. 

                                                                                                      4S CFR § 74.32(a) 


                                                                                                      45 CFR § 74.37




INext Ste ps:
 I . (.,",110_. .......'pII'lOCf. 

                                                               Page 14 of25




                      FLNANC lAL SUSTAI.NABILITY PLAN




COST SAVINC I NITIATIVES                           2009-2010 Pro 'cctcd
Staff Reductions                                           $200,000.00
Voluntary Leave Without Pay                                 $70,000 .00
Additional Negotiated DiscOlmts: Food                       $25000.00
Eliminate Head Stat1 contract provider                      $2800000
Additional Negotiated Discounts: IntemetINeLwork
Services.                                                   $25,000.00
NET IMPACT                                                 $348,000.00



R EVENUE I NiTiATIVES                              2009-2010 Pro"cdcd 

Rental Income                                              $140,000.00 

Found."ltion Grants                                         $25,000.00 

Sale of Vehicles and Obsolete Equipment                     $20000.00 

Sale of Real Estate                                        $150.000.00 

Training Fees                                               $15000.00 

Fundraiger Events                                            75,000.00 

NET IMPACT                                                 $410.000.00 




ANNUAL IMPA CT:                                          $773,000.00
                                                                                 Page 15 of25




                                                                  1)'J1~'!eM.~~uwh
                                                                  l'            .~
                       Child Curt! As'\"oci(/t;oll ofBrewml County, Jilt:.       '" _
                            ' >Oll/IIII/II;(Y   child care coordinating agency



March 27. 2009

Mary Jones
OfTiceofHead Start
Administration for Children and Families
U,S . Department of Health & Human Services
Atlanta Federal Center
61 Forsyth Sireel, Suite 4M60
~t.~nla , GA 30303-8909

        .
Dear Ms. Jones:

Our audil firmju sl notified us Ihal our audit report wilino! be ready as scheduled
due   \0   an unforeseen back log in their schedule.

We are therefore requesting a 15·(lay ex tension for submission of our audit rcporl.

Your favo rable considcnllion and approval is appreci'l1cd.




John H. Slonn
Chainllan, Board of Directors


cc:   0 1i ~sa   Williams
                                                                                                   Page 16 of 25




  MJ'. John SIOrm, Bow ~n                              

  Borud ofDiJ(:etors 

  Child Car" Associalioo ofBrevan:! Cnunt)', Inc. 

  Head SlartlEarly Head Slar! Program 

  18 Harrison Stren 

  COQ)&, Florklll32922.79l4

  Rc.:: 04CH3087141

  Dear Ml:L Stonn:

  This lelia- refi.orc:Jx:.es, leller, cIaIcd Murch 21, 2009, from 8artIarI Moore, ElI.el:lllive
  fl..evam Collnly O>ild Cue Asso"ialiun, requelting an utellllon on submining)'bur
  A-133 u'1llllliution-wide audit. The audit is lOr ProgrlUll Year 41 which ha.5 II Pm     . Year end
  dille of ApOl30, 2008 and • Fiscal Year cod dp! ~ o r June 30, 2008. Tit(: A- 133 audit i$ du.e in the
  Atlama Regiolllli Office and the Federal Audit Oearinghouse on March 31, 2009.

  You swed lhaI)'Ow .udit firm notified )'OUIMt tbe audit report will nol be ready as
  • IOnseen bacltIog in their schodule. You also J{alm lhallbc F"1SCal Year 2007 A"133 ' .mz.ticmlli·
  wide a1.ldi! wiu be submllt od to the Federal Audit Clearinghouse as lVen as 10 the Allan I Rcgiooftl
  Office by April 17, 2(1011.

  Yournoque:.t has be.,., approyod. PJ..:asc oolify the Audit Clcaringhouscofthis ' ppro"           froI!I,he
  Al1anta Regional Oflice.

  Que.<tiont may he directed to Ma. Mary W. JO""'l, Fin"""inJ (lporllliol1ll Spcciallia, at 4       ·562-2872.

  Sincerely,




~
       tnn,V:)C.L'"
         $ Colvin, GrmtU Offiur 

                                      .
      o:gion IV - Office OfGran11 MAn.ll.gemen1 


  cc: Ms. Baro.r. ~~orc, CEOIEIteCUIM Dit«lor 

      Mi, JoA.mc Scamge. Head Start DircclOr 

        Ms, :via"", Taylor, Q,icfFinaflciaJ OffiC<.'!' 





.."
                                                                                                            Page 17 of 25




                          DAVIES. HOUSER & SECREST. CPA. P.A.
                                                          IIIJ!lL''aS C\lI\:Il)I.TM'Q ASO ,',..,111. Y WlAI.Il1 rlMHln



.~" ..""'''';IJIrm.n                                                                             IJ!rr<.'_EIIItrin<,
  F~"        r1orlPo_                                                                                 fW:!<lC 1<_
  ~,jfiJl;,                                                                                           lrolWF._,
  T..1d M, RM;"IJ                                                                                    11111~1f.~1M




April 28, 2009


Ms. Btuboro Moore.      P~idenLICliO
Chi ld ell'" A5Socialion or flrevnr':! COllll1),.I IIC.
18 II nrri50n Slreel
Cueoo. Florida 32922

Oenr M~. Moore:
011"   'n unexpected !klay~ ".., hove enco1lntered dUrilllllhe nudil of IhC' Ch ild CHTC Assuc;nli"" of
I3revhrd County, Inc. and a vcry busy          18~ !;ClI.~n   we wert 001 able La complete the audit 115
an riefpDled by MIIl'CIt 31. 2009. We ex(leCI III OOll1pJele Ihe cngagem~nl u,K1 iilSue uur "'purls on
the Association no later than Ma y 15. 200'J.
Sinccrely.
DAVIES. HOUSER & SECREST. CPA. P.A.

 · ~.fC (           . /i
Stephen~. Ellis
Certified Public ACCOInUMI
SAE:OJK




         lH nELA~NOY "V~NUf • roSl o n H" t BOX IH •                    rt)'fli\. njl~m" JlUJ'~ll~
             IFI. ErHOWL )l l ~J •. DH• • H)( HI 6U ~9U                 • _ •• .. <".~"."., <~ ..
                                   Page 180[25




-.
~~
  <
..
E
::s
~

< >
~.
    0




                          !    ~
~~e
U
                  >

~"
~.               ,­
< ~
    •
                 <•   

                  •

                 •,


        q
            I
            ,
            ~
                 .,
                 ,
                 ~

                 8        i
                          l•   J
        ~
        ~
        u
        "
        ~
            ,3
            •
            •E• •,
                          IB   j
                               j
          •               ~    ~
        ~ > 80 

            ~



        ~   ~    "
                 0

                                              Page 190[25




•
•~
<
 ~
          j
          I
                        I
                        r
                                    88
                                    !§   ~
                                         •
                                         §
          •
                        n,.
                                    •
                                         •
                        •• •j             ~
                        n
                        II ,
                        l ~
                                         ,~
                                         ,,
                                         ~

                                         •
     ,.
     !!                 !• J0            I
     !j
     t.        ",• ,i   i   ~
     -,
     p         j   ,!    ,'
                        • l
     -r
     ~.
                 ~ ,    i• .f
     U                   .1
                         •
                         ·!
                                •




                        JI
                        H
                        n   !
                            !

               ••
              ""
              i~
              ..
               ~
               ;
                                                                                                           Page 20 of2 5




                           C hild Core Assod flfiOlr 0/ nr'el'tlrd COIllIt)', l ilt: .
                                 communil.\' child ca,.e coo,.dillating agenc),
                    " IU RRISOSSTRI:I:T.I-"OCO.\ . f L JUll·     ~ uos~   OlIIW.J5M· f ,IS mil U ~ .J!1J




Fixed Asse! Equipm ent De p rccilltion Schedule




                                                                                      IOY.afS



8u,i,1fU                                                                              ! " ...



Communi,..,lo.,

  11n<·IU<loI; lo1'l'ho"~ ." 11chrs)

Coonpuln

flood S... k"

rurnilU"




Shop &: ~binl''''''''''                                                               1 Y.....




VChicl ..                                                                             5 , 'tarl

  Iindudts IlJndlnI ... wrnobi .... " . ... lind li,hl,",cl.ol
                                                                                     Page 21 of 25




                                          Child Care Association of Brevard County
                                                      Inventory Listing


     loutlon :

     Custodian:

     Date of rnuentOI)/ Count/Update:


                           Seri~11I                           Description             Inventory Type




Inventory TVlle:                                PhyslCilI Inventory Monilorinls
   Computer

                                        l. D"g~~ ''nitia:ii~~~~~
1.
2. Printer/ F~K                         2. Dale                     initial
3.
4.
   Office Furniture
   PtaYliround Equipment
                                        3. Date
                                        4 . Date
                                                  "' ','            Initial
S. Other (Specify) _ _ __               s. D~te, _ _ _ _ __         Inlti~1
                                                                                                             Page 22 of25




                                                                                                                   Page I of J


  Ba rbilrl Moo.re
   hom:                                                                           Sent: Wed 8/27f2008 2:0'1 PH 

   To : 

   ~

   SUbJ-<:t:




  I am pleased to repor11hat the Boord 01 OIr&e1ors has authorized in. hiring of       an interim CFO.



  Stle is   now on staff and   receivong her orientation .   We will keep you polled on aur progress.



 Sarbars




                  .,


hUp:/lmuiI.chiltkurdm:vord .colll/exc hnnll.elbarbanun/Sclll%2011ClllslCFQ%20 hi red .ti M L?C... 911112008
                                                      CHILD CARE ASSOCIATION OF BREVARD COUNTY,INC.
                                                                   YOLUNTEE.R TIMESHEET


                                                                    For wed: ending            I

Volunteer's Name:                      liSt 	                             Ftrst                             MI

Check (,I,) whether.                   Owly Head Start Patent                      Cheek (I) wbethcr:              o Professional categOry
                                       o Head Start Parent 	                                                       o Head Swt aae!'lC)' staff
                                       o Fonner Head San Parent 

                                       a PTe-K Parent 

                                       o ""'"'
Center N:;lIllC: 	                                                                         Classroom (.I)                 o      08      DC

                             T	. ...                                                                                                              c.mp.....,
                               In           """ 0.,
                                                         No, of
                                                         Boon
                                                                      VoI.ateer's Stp.tun!                       DeKrlption of ~ce
                                                                                                                                                  Arel Code

   Mo.dav
   Tucs4a"
   Wedneoda

   "'...,........
   50....... 

   SundMy


rT_I ~.._""'_ _.Ihi._:
                                                        1	        CiOMJ"ONQn   ~   CODES , 	
                                                                                      ---
                                                                                                   ,_"",,1,,-, _ _ _ , _ , ._ _
                                                                                               _ _ '''"'"' ........ I t T - - .      

                                                                                                                                                     1_.
Signature: 	                                                                               SIgnatUre:                                                             ."
                     vOlunlcct 	                                                                        "S~
"c;I!M::Y UIl£ONLY, 	                                                                                                                                             Jl!
                                                                                                                                                                  ~




--_. _--._....__-	                                ...                                                                                                         -
                                                                                                                                                ......-.... ...
                                                                                                                                                                  ~
                                                                                                                                                                  w
                                                                                                                                                                  ...,
                                                                                                                                                                  o
                                                                                                                                                                  ~
                                                                                                                                                                  V>
                                                                                           Page 24 of25




                       Child Care Associflfioll of Brel'urd COUllt)', i1/c.                       •

-~                                                          ~=::-·s.:;.'

                                                            i~ro@ '.                   m




JUlle 9, 2009

Jeffrey Fre(]ericks, Branch Manager 

Region IV Office of Head Start 

Department ofChildren and Families 

61 Forsyth Street, Suite 4M60 

Atlanta. Georgia 30303-8909 


DeaT Mr. Fredericks:

As you know , OUT Agency look out :1 loan 10 cover OIIT budget short fall experienced 'It the end of 

the la~t fisc;!! year. May 200S-April 2009. We also have commiul1cllt from our bank for a Line 

of Credit wilh collateral. We noX'() HHS IIpproval 10 usc properly with a Federal interest In 

sC(:urc the Joan and Jille of credit.

Your authorization .md approval is appreciated.

Sincerel y.




Juhn St0l111, Chainmlll 

Board of Directors 

                                                                          Page 25 of25




               Cilild Care Associatioll ofB revard COUllty. Ill c.

               "                                              • <
                   it     II




July 8, 2009

Jeffrey Fredericks, Branch Manager
Region IV Office of Head Start
Administration for Chi ldren & Families
U.S. DepHrtment of Health & Human Services
61 Forsyth Street, Suite 4M60
Atlanta, Georgia 30303-8909

Dear Mr. Fredericks:

This will confinn the telephone call with you on Tuesday, July 7, 2009 from J.
Albert Diggs, Past President or the Board of Directors confirming arrangements for
the Agency' s payroll with our bank.

We are forwarding to you the payroll register for the week of July 10, 2009,
expenses for this period and the corrected payroll documentation for the week of
May 15, 2009.

The Board of Directors has reorganized and authorized a team of Board financial
experts 10 work wilh finance Staff weekly to audit and ensure appropriate and
timely processing of documents. This extra oversight will provide added expertise
to our Finance leam and assurance of full compliance.

The Board of Directors and Personnel Commillee are continuing to address other
changes and efficiencies.

We wi ll provide updates and reports to you as appropriate.

Sincerely,



Wanda Knight, Vice Chairperson
Board of Directors
